No

.h-335

In the
Supreme Court of the United States
Jaideep S. Chawla,
Petitioner,

v.
Court of Appeals of Massachusetts,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME JUDICIAL COURT FOR THE
COMMONWEALTH OF MASSACHUSETTS
PETITION FOR A WRIT OF CERTIORARI

Jaideep S. Chawla
Mailing Address:
12 Lexington Avenue
Charlestown, MA 02129
Pro Se Petitioner

-RECEIVED '
SEP 12 2019

1

QUESTIONS PRESENTED
Whether a state appeals court violates the
1.
Fourteenth Amendment to the U.S. Constitution by
changing the composition of an appellate panel
during the rehearing phase contrary to its own
written rules and without notice or an opportunity to
be heard.
2. Whether the Fourteenth Amendment to the U.S.
Constitution requires recusal of a judge who was a
participant in the executive action under review and
was also a witness to disputed facts.

11

PARTIES
All parties are identified in the caption of this
Petitioner was the petitioner in the
petition.
Supreme Judicial Court for the County of Suffolk
and was the appellant in the Supreme Judicial Court
for the Commonwealth of Massachusetts. Petitioner
is a natural person.

RELATED CASES
Chawla v. Court of Appeals of Massachusetts
Supreme Judicial Court for the Commonwealth of
Massachusetts
Case No. SJC-12488
Decision Date: April 11, 2019
Chawla v. Court of Appeals of Massachusetts
Supreme Judicial Court for the County of Suffolk
Case No. SJ-2017-0095
Decision Date: February 15, 2018
Commonwealth ex rel. Chawla v. Gonzalez, et al.
Court of Appeals of Massachusetts
Case No. 2015-P-0483
Decision Date: August 22, 2016
Commonwealth ex rel. Chawla v. Gonzalez, et al.
Suffolk Superior Court
Case No. 1484CV2090D
Decision Date: December 10, 2014

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES

11

RELATED CASES

11

TABLE OF CONTENTS

m

TABLE OF APPENDICES
TABLE OF AUTHORITIES

,v
,vi

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION
I.

11

The Decision Below Conflicts With This
Court’s Due Process Jurisprudence Requiring
That Reasonable Notice Be Provided To
Apprise Interested Parties Of The Pendency
Of State Government Action And To Afford
Them An Opportunity To Present Their
Objections Prior To Deprivation Of A Property
14
Interest

IV

TABLE OF CONTENTS (cont’d)
II. The Reasonable Notice Question Is An
20
Important Federal Issue
III. The Decision Below Conflicts With This
Court’s Recusal Jurisprudence Under The Due
22
Process Clause
IV. The Recusal Question Is An Important
25
Federal Issue
CONCLUSION

27

V

TABLE OF APPENDICES
APPENDIX A
Opinion Of The Supreme Judicial Court For
The Commonwealth Of Massachusetts
(April 11, 2019)............................................... la
APPENDIX B
Judgment Of The Supreme Judicial Court
For The County Of Suffolk
(February 15, 2018)..................................... 8a
APPENDIX C
Memorandum And Order Of The
Court Of Appeals Of Massachusetts
(August 22, 2016)..............................

11a

APPENDIX D
Order Of The Court Of Appeals Of
Massachusetts Denying Petition For
Rehearing (October 6, 2016).............

28a

VI

TABLE OF AUTHORITIES
Cases

Page(s)

Chawla v. Heffernan, et al.,
138 S. Ct. 281 (2017)

2

Chawla v. Healey, et al.,
Civ. Action No. 1784-CV-2087C
(Super. Ct. Suffolk Cty.)............

11, 18

Chawla v. Commonwealth, et al.,
Civ. Action No. 1784-CV-3165E
(Super. Ct. Suffolk Cty.)............

11, 18, 26

Comm’r of Revenue v. Mullins,
701 N. E. 2d 1, 428 Mass. 406
(Mass. 1998)..............................

passim

Commonwealth ex rel. Chawla v. Gonzalez, et al.,
90 Mass. App. 1102,
56 N.E.3d 894 (2016).......................................
Fellers v. United States,
540 U.S. 519 (2004)
Field v. Mass. Gen. Hosp.,
469 N. E. 2d 819,
393 Mass. 117 (1984)
Fuentes v. Shevin,
407 U.S. 67 (1971)

7

12

13, 18, 20

17

Vll

TABLE OF AUTHORITIES (cont’d)
Page(s)

Cases
Graciette v. Star Guidance, Inc.,
66 FRD 424 (S.D.N.Y. 1975)

18

In re Murchison,
349 U.S. 133 (1955)

passim,

Logan v. Zimmerman Brush Co.
455 U.S. 422 (1982)..........

.passim

Massiah v. United States,
377 U.S. 201 (1964)
Mullane v. Central Hanover Trust Co.,
339 U.S. 306 (1950).....................

12

12, 14, 15

Olmstead v. United States,
277 U.S. 438 (1928).

22

Smith v. Duncan,
297 F. 3d 809 (9th Cir. 2002)

11

United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260 (2010)................................

12, 20

Williams v. Pennsylvania,
136 S. Ct. 1899,
195 L. Ed. 2d 132 (2016)

23, 25

vm

TABLE OF AUTHORITIES (cont’d)
Statutes and Rules
U.S. Const. Amend. XIV,

Page(s)
passim

28 U.S.C. § 1257

1

28 U.S.C. § 1651

1

Mass. Gen. Laws, ch. 64K §§ 1-14
Mass. Gen. Laws, ch. 94C § 32A(c)
Mass. Gen. Laws, ch. 211 § 3....
Mass. Gen. Laws, ch. 268 § 36
Mass. R. Civ. P. 60(b)

passim
4
17
7
11, 12, 17

Mass. R. App. P. 24(a)

19

Mass. R. App. P. 24(b)

19

Mass. R. App. P. 27(a)

passim

Mass. R. App. P. 27.1(a)

16

Other Authorities
Wright, Miller, and Kane,
11 Federal Practice and Procedure

18, 19

1

PETITION FOR A WRIT OF CERTIORARI

Petitioner, Jaideep S. Chawla (“Petitioner”),
acting pro se, respectfully petitions for a writ of
certiorari to review the judgment of the Supreme
Judicial Court for the Commonwealth of
Massachusetts.!
OPINIONS BELOW
The judgment of the Supreme Judicial Court
for the Commonwealth of Massachusetts was
entered on April 11, 2019. Appendix to Petition
(“App.”) la. The opinion of the Supreme Judicial
Court for the County of Suffolk was entered on
February 15, 2018. App. 9a. The opinion of the
Court of Appeals of Massachusetts was entered on
August 22, 2016 (App. 11a), and rehearing was
denied by a new panel on October 6, 2016 (App. 28a).
JURISDICTION
This Court has jurisdiction pursuant to 28
U.S.C. § 1257(a), or, in the alternative, 28 U.S.C. §
1651(a). On July 2, 2019, Justice Breyer extended
the time to file a petition for a writ of certiorari in
this case to and including September 9, 2019.
1 Alternatively, Petitioner requests that this Court consider this
petition as a petition for a writ of mandamus to the Court of
Appeals of Massachusetts. 28 U.S.C. § 1651(a).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves the Fourteenth Amendment
to the United States Constitution, which holds in
pertinent part: “No State shall... deprive any person
of life, liberty, or property, without due process of
law.”
In addition, this case involves Rule 27(a) of
the Massachusetts Rules of Appellate Procedure,
which holds in pertinent part: “A petition for
rehearing shall be decided by the quorum or panel
which decided the appeal.”2
STATEMENT OF THE CASE
This is the second time that Petitioner has
requested relief from this Court in connection with a
Chawla v.
little-known Massachusetts drug law.
Heffernan, et al, 138 S. Ct. 281 (2017) (certiorari
denied). Petitioner directs this Court to the text of
and appendix to his prior certiorari petition, both of
which contain relevant materials.
The Massachusetts Controlled Substances Tax
(Mass. Gen. L. ch. 64K §§ 1-14 or the “CST”) imposes
a monetary penalty upon the acquisition or
possession of marijuana or controlled substances
2 The Supreme Judicial Court for the Commonwealth of
Massachusetts recently revised the Massachusetts Rules of
Appellate Procedure effective March 1, 2019, including some of
the text of Rule 27, but the changes do not affect this case.

3

within the jurisdiction of the Commonwealth of
Massachusetts at a rate of $3.50 per gram of
marijuana $200.00 per gram of a controlled
substance, and $2,000.00 for each fifty dosage units
of a controlled substance. Mass. Gen. Laws ch. 64K,
The Commissioner of the Massachusetts
§ 8.
Department of Revenue is responsible for
enforcement of the CST. Mass. Gen. Laws, ch. 64K §
2. Violation of the CST is a felony. See Mass. Gen.
Laws, ch. 64K § 9.
On November 19, 1998, the Supreme Judicial
Court for the Commonwealth of Massachusetts
issued its opinion in the case of Commissioner of
Revenue v. Mullins, 701 N. E. 2d 1, 428 Mass 406
Supreme Judicial Court for the
(1998).
Commonwealth of Massachusetts Appendix (“SJC
App.”) 43. Since Mullins, which determined that the
CST has a criminal law component, there have been
no criminal prosecutions pursuant to the CST
brought in Massachusetts. Id. at 44.
According to uncorroborated statements in
state and federal courts by the Massachusetts
Attorney General, following Mullins, the
Commissioner of the Massachusetts Department of
Revenue “directed DOR to abstain from enforcing the
Controlled Substances Tax.” Id. at 47-48. To this
day, except for written and verbal statements in
court by the Massachusetts Attorney General’s Office
in connection with this case and related state and
federal cases, there has been no public notice of this
“directive] ... to abstain from enforcing the

4

Controlled Substances Tax” (the “Secret DOR
Directive”). Id.
Two years before Mullins in 1996, Eric
Neyman (now a Justice of the Massachusetts
Appeals Court) joined the Suffolk County District
Attorney’s Office, where he prosecuted drug and
gang related cases. Id. at 43. Justice David Lowy of
the Massachusetts Supreme Judicial Court, who was
the single justice disposing of the case for which
certiorari is sought, was one of Justice Neyman’s
colleagues in the Gang Unit of the Suffolk County
District Attorney’s Office. Supreme Judicial Court
for the Commonwealth of Massachusetts Motion
Requesting Judicial Notice dated September 11,
2018 (“September 2018 SJC Motion,” (dkt. no. 18)) at

1111 1, 2.
On April 29, 1999, more than five months
after Mullins, Justice Neyman signed an indictment
in a crack cocaine distribution case pursuant to
Mass. Gen. Laws ch. 94C § 32A(c), which is a
different Massachusetts drug law that has been
regularly enforced. SJC App. 44. Along with every
other state drug prosecutor, Justice Neyman
declined to bring charges in 100% of cases pursuant
to the CST. Id. At the same time when there was
(according to the Massachusetts Attorney General)
secret, state-wide non-enforcement of the CST, the
Massachusetts Attorney General and the District
Attorneys of the Commonwealth accepted millions of
dollars from the U.S. Department of Justice’s
Equitable Sharing Program, which shares drug

5

money seized under federal law with state law
enforcement agencies. Id. at 51-52. Money received
by a state law enforcement agency in Massachusetts
under the Equitable Sharing Program goes directly
to a private bank account, while money paid
pursuant to the CST is deposited in the
Commonwealth’s general fund. Id. at 112-19.
Acting pro se, Petitioner brought a qui tam
action (the “Qui Tam Action”) pursuant to
Massachusetts law in June 2014. SJC App. 109. In
the Qui Tam Action, Petitioner alleged that two
defendants had failed to pay $1,200,000 pursuant to
the CST owed upon their acquisition or possession of
three kilograms of cocaine in the Commonwealth.
Id. at 46-47. The defendants in the Qui Tam Action
had been arrested and charged with violation of
federal narcotics laws in March 2014, during which
time they were found to be in possession of more
than $1.5 million in cash that was taken into custody
by the U.S. Department of Justice pending federal
forfeiture proceedings. Id.
Having purchased a number of single-gram
controlled substance tax stamps for $200.00 each,
Petitioner submitted public and non-public evidence
to Suffolk Superior Court showing that the
defendants in the Qui Tam Action had not paid any
portion of the money owed to Commonwealth
pursuant to the CST. Id. During the proceedings in
Suffolk Superior Court, the Massachusetts Attorney
General filed a motion to dismiss and never disclosed

6

her acceptance of money from the Equitable Sharing
Program. Id. at 49.
In moving to dismiss the Qui Tam Action, the
Massachusetts Attorney General revealed the Secret
DOR Directive for the first time and cited it as a
Id. Suffolk Superior Court
basis for dismissal,
dismissed the Qui Tam Action in December 2014.
Id. at 52.
After Petitioner appealed Suffolk Superior
Court’s dismissal of the Qui Tam Action, Petitioner
and the Massachusetts Attorney General presented
oral argument at the Court of Appeals of
Massachusetts on January 11, 2016. Id. at 48. The
Massachusetts Attorney General did not disclose her
acceptance of money from the Equitable Sharing
Program to the Court of Appeals of Massachusetts.
Id. at 48-49.
During the January 11, 2016 oral argument,
Assistant Attorney General Amy Crafts (“AAG
Crafts”) stated that, after Mullins, “the
Commissioner of Revenue determined that there
would be absolutely no enforcement of the Controlled
Substances Tax either with respect to referrals from
law enforcement or otherwise.” Id. at 49. Justice
Gary Katzmann then asked, “Where is that in the
record, that the Commissioner has made that
determination?” AAG Crafts responded that, “[i]t’s
in the brief. There’s no support for it in the record.”
Id.
On August 22, 2016, the Court of Appeals of
Massachusetts issued a memorandum and order (the

7

“Memorandum and Order”) affirming the lower
court’s dismissal of the Qui Tam Action. App. 11a;
Commonwealth ex rel. Chawla v. Gonzalez, et al., 90
Mass. App. 1102,
56 N.E.3d 894 (2016).
The
Memorandum and Order did not examine whether
the Massachusetts Attorney General had a financial
conflict of interest. App. lla-27a.
On September 9, 2016, Petitioner filed a
petition for rehearing and related papers in the
Court of Appeals of Massachusetts. SJC App. at 52.
Petitioner presented four arguments in his petition
for rehearing, including that (1) the Massachusetts
Attorney General was wholly compromised by a
financial conflict of interest given her acceptance of
slightly more than $360,000 from the U.S.
Department of Justice during the pendency of the
Qui Tam Action, thereby necessitating
disqualification of her entire Office; (2) the
Massachusetts Attorney General was acting in
contravention of Mass. Gen. Laws ch. 268 § 36 (the
crime of compounding a felony); (3) the Secret DOR
Directive violated Article XX of the Massachusetts
Declaration of Rights; and (4) the Secret DOR
Directive, by virtue of its secrecy and the criminal
law component of the CST, violated the Due Process
Clause of the Fourteenth Amendment to the U.S.
Constitution. Id.
On September 13, 2016, the Court of Appeals
of Massachusetts ordered “[t]he Commonwealth ... to
respond to [Petitioner’s rehearing papers] on or
Justices Gary
Id. at 102.
before 9/22/16.”

8

Katzmann, Judd Carhart, and C. Jeffrey Kinder
signed this order. Id. The Massachusetts Attorney
General responded on September 22, 2016 and
asserted that she had no conflict of interest because
there was no influence over her prosecutorial
decision-making by the U.S. Department of Justice.
Id. at 52-56. In her response, the Massachusetts
Attorney General presented no evidence as to how or
why she came to accept more than $360,000 from the
Equitable Sharing Program at the same time that
she moved to dismiss the Qui Tam Action.3 Id.
While the petition for rehearing was being
litigated, Justice Gary Katzmann departed the Court
of Appeals of Massachusetts after receiving his
commission for a judgeship on the U.S. Court of
International Trade from the president on
September 15, 2016. September 2018 SJC Motion at
*\\ 3. Gary Katzmann had been confirmed by a voice
vote in the U.S. Senate for a judgeship on the U.S.
Court of International Trade on June 6, 2016. Id.
During the same U.S. Senate session on June 6,
2016, Jennifer Choe-Groves was also confirmed by a
3 Petitioner submitted a reply arguing that the Massachusetts
Attorney General’s acceptance of more than $360,000 during
the pendency of the Qui Tam Action in fact showed complete
control over the Massachusetts Attorney General’s
prosecutorial decision-making by the U.S. Department of
Justice. Id. The difference between the amount accepted by
the Massachusetts Attorney General from the Equitable
Sharing Program ($360,755) and Petitioner’s potential bounty
in the Qui Tam Action (30% of $1.2 million, or $360,000) is less
than two-tenths of one percent. Id.

9

voice vote for a judgeship on the U.S. Court of
International Trade (both had also been nominated
on the same day and had a hearing on the same day).
Id. at
4.
Unlike Katzmann, who received his
judicial commission more than one hundred days
after Senate confirmation, Choe-Groves received her
judicial commission from the president within two
days after the U.S. Senate voice vote. Id.
On October 6, 2016, the Court of Appeals of
Massachusetts denied the petition for rehearing and
related papers.
App. 28a.
In a footnote to its
October 6, 2016 order, the Court of Appeals of
Massachusetts disclosed for the first time that “[t]his
case was originally heard by a panel comprising
Justices Katzmann, Carhart, and Kinder. Following
Justice Katzmann's departure from the Court,
Justice Neyman was added to the panel.” Id.
On December 6, 2016, Petitioner filed a
motion for recusal of Justice Neyman in the Court of
Appeals of Massachusetts on grounds of violation of
the Due Process Clause of the Fourteenth
Amendment to the U.S. Constitution and
Massachusetts law governing recusal. SJC App. 103.
On December 13, 2016, Petitioner’s motion for
recusal of Justice Neyman was denied by Justices
Carhart, Kinder, and Neyman without any
statement beyond the denial. Id.
On March 1, 2017, Petitioner filed a complaint
in the nature of mandamus in the Supreme Judicial
Court for the County of Suffolk against the
Massachusetts Appeals Court (the “Mandamus

10

Action”) seeking to compel both recusal of Justice
Neyman and compliance with Rule 27(a) of the
Massachusetts Rules of Appellate Procedure, which
governs petitions for rehearing.4 SJC App. at 7.
After being assigned to Justice Kimberly Budd at the
County Court for several months, Justice David
Lowy (Justice Neyman’s former colleague) was
substituted as the presiding judge in the Mandamus
Action without explanation. Id. at 5.
Meanwhile, Petitioner brought two separate
civil actions in Suffolk Superior Court: First, a
lawsuit seeking public records relating to payments
accepted by the Massachusetts Attorney General
from the Equitable Sharing Program; and second, a
lawsuit seeking recovery of the bounty in the Qui
Tam Action.s
These lawsuits involved recusal
motions filed by Petitioner for three judges based on
1) fundraising efforts for the Massachusetts Attorney
General’s first campaign prior to becoming a judge;
2) work experience at the same law firm as the
Massachusetts Attorney General and her spouse as
4 The Massachusetts Attorney General (Maura Healey), whose
Office has represented the Commonwealth and the Court of
Appeals of Massachusetts throughout this litigation, is married
to Justice Gabrielle Wolohojian of the Court of Appeals of
Motion Requesting Judicial Notice dated
Massachusetts.
August 27, 2018 (dkt. no. 16). Justices Wolohojian and Neyman
appeared together and made remarks at a public event
advertising their respective positions on May 17, 2017. Id.
5 This Court may take judicial notice of relevant proceedings in
state court that are not part of the record.
See Smith v.
Duncan, 297 F. 3d 809, 915 (9th Cir. 2002).

11

well as campaign donations prior to becoming a
judge; and 3) friendship with the Massachusetts
Attorney General and her spouse. All three recusal
motions were denied.6
On January 31, 2018, Petitioner filed a motion
to vacate the judgment in the Qui Tam Action
pursuant to Mass. R. Civ. P. 60(b)(4) in the County
Court. Id. That motion, which was based on an
alleged due process defect for failure to comply with
Mass. R. App. P. 27(a), was denied and the
Mandamus Action was dismissed by Justice Lowy on
February 15, 2018 on procedural grounds without
examination of any due process issues. App. 10a.
Petitioner then appealed to the full Supreme Judicial
Court for the Commonwealth of Massachusetts. SJC
App. 6. On April 11, 2019, the Supreme Judicial
Court for the Commonwealth of Massachusetts
affirmed Justice Lowy’s rulings in the Mandamus
Action. App. la-7a.
Petitioner now seeks relief from this Court.
REASONS FOR GRANTING THE PETITION
Consistent with this Court’s Rule 10(c), this
case presents important questions of federal law
decided by the Supreme Judicial Court for the
Commonwealth of Massachusetts (“SJC”) in ways

6 Chawla v. Commonwealth, et al., No. SUCV-2017-3165E
(Super. Ct. Suffolk Cty.); Chawla v. Healey, et al., No.
SUCV-2017-2087C (Super. Ct. Suffolk Cty.).

12

that conflict with relevant decisions of this Court.
See Fellers v. United States, 540 U.S. 519, 521 (2004)
(granting certiorari where lower court failed to apply
Massiah v. United States, 377 U.S. 201 (1964)).
First, this Court long ago held and has
consistently reaffirmed that the Due Process Clause
of the Fourteenth Amendment to the U.S.
Constitution requires reasonable notice and an
opportunity to be heard before deprivation of a
property interest in any state government
proceeding. Logan v. Zimmerman Brush Co., 455
U.S. 422, 428 (1982); Mullane v. Central Hanover
Trust Co., 339 U.S. 306, 313 (1950). In this case,
however, the Court of Appeals of Massachusetts
provided no notice or opportunity to be heard
concerning the formation of a new appellate panel to
dispose of the petition for rehearing filed by
Petitioner. See Mass. R. App. P. 27(a) (“A petition
for rehearing shall be decided by the quorum or
panel which decided the appeal.”) (emphasis added).
When called upon to correct this blatant
violation of a fundamental right through a motion
pursuant to Mass. R. Civ. P. 60(b)(4) (which is
analogous to Fed. R. Civ. P. 60(b)(4)), the SJC hid
behind procedural smoke and mirrors and did not
deign to mention the words “due process” or “notice.”
See United Student Aid Funds, Inc. v. Espinosa, 559
U.S. 260, 271 (2010) (“Rule 60(b)(4) applies only in
the rare instance where a judgment is premised
either on a certain type of jurisdictional error or on
violation of due process that deprives a party of

13

notice or the opportunity to be heard.”) (internal
citations and quotation marks omitted); Field v.
Mass. Gen. Hosp., 469 N. E. 2d 819, 821, 393 Mass.
117, 118 (1984).
The decision below therefore conflicts with
relevant decisions of this Court setting forth the
Fourteenth Amendment’s requirements of
reasonable notice and an opportunity to be heard
appropriate to the nature of a given state
government proceeding prior to deprivation of a
property interest. The question of whether a state
appeals court must provide notice when acting
contrary to its own rules is an important federal
issue, because if any court in the United States can
suddenly and surreptitiously substitute judges and
brazenly violate its own rules to reach a decision,
then the United States is a republic in name only.
Second, the decision below conflicts with this
Court’s recusal jurisprudence under the Due Process
Clause, which the lower courts failed to apply.
Despite having knowledge of disputed and material
facts concerning the secret non-enforcement of the
CST (through his position as a state narcotics
prosecutor before, during, and after Mullins), Justice
Neyman parachuted into the rehearing phase and
entered an order disposing of the appeal of the
See In re
dismissal of the Qui Tam Action.
Murchison, 349 U.S. 133, 138 (1955).
The recusal question is an important federal
issue because Justice Neyman became involved in
the appeal of the dismissal of the Qui Tam Action at

14

the exact moment when the issue of improper
payments from the U.S. Department of Justice to the
Massachusetts Attorney General was raised for the
first time. Justice Neyman’s participation in the
appeal of the dismissal of the Qui Tam Action and
the SJC’s subsequent welcoming of that participation
pose a significant threat to public confidence in the
administration of justice for the simple reason that
the entire ordeal reeks of a shabby cover-up (because
it is one). See Murchison, 349 U.S. at 136 (“[Jjustice
must satisfy the appearance of justice.”) (internal
quotation marks and citations omitted).
The Decision Below Conflicts With This
I.
Court’s Due Process Jurisprudence Requiring
That Reasonable Notice Be Provided To
Apprise Interested Parties Of The Pendency Of
State Government Action And To Afford Them
An Opportunity To Present Their Objections
Prior To Deprivation Of A Property Interest.
In Mullane, this Court memorialized the
reasonable notice and opportunity to be heard
requirements of the Due Process Clause of the
339 U.S. at 313 (“An
Fourteenth Amendment.
elementary and fundamental requirement of due
process in any proceeding which is to be accorded
finality is notice reasonably calculated, under all the
circumstances, to apprise interested parties of the
pendency of the action and afford them an
Once
opportunity to present their objections.”).

15

again, this Court is “faced with what has become a
familiar two-part inquiry: [This Court] must first
determine whether [Petitioner] was deprived of a
protected interest, and, if so, what process was his
due.” Logan, 455 U.S. at 428.
As noted in Logan, “[t]he first question ... was
affirmatively settled by the Mullane case itself,
where the Court held that a cause of action is a
species of property protected by the Fourteenth
Amendment’s Due Process Clause.” Id. The sudden
and surreptitious substitution of Justice Neyman
into the appellate panel disposing of the appeal of
the dismissal of the Qui Tam Action, in view of the
straightforward requirement of Mass. R. App. P.
27(a), represents the kind of deprivation at issue in
both Mullane and Logan.
While it is true, as the SJC found, that
Petitioner could have appealed the ruling of the
newly formed panel through an application for
■ further appellate review to the SJC, that finding
ignores the fundamental point: Petitioner was
entitled as a matter of state law to the disposition of
his petition for rehearing by the panel or quorum
which decided the appeal. See Logan, 455 U.S. at
430 (“The hallmark of property ... is an individual
entitlement grounded in state law, which cannot be
Petitioner’s
removed except ‘for cause.’”),
entitlement was set forth in Mass. R. App. P. 27(a),
which holds that “[a] petition for rehearing shall be
decided by the quorum or panel which decided the
appeal.”

16

Having established deprivation of property,
the next inquiry is what sort of process Petitioner
was due. See Logan, 455 U.S. at 428. The SJC
would have you believe that further appellate review
is somehow an adequate post-deprivation remedy for
the failure of the Court of Appeals of Massachusetts
to comply with its own rehearing rules. As this
Court held in Logan, “[w]hat the Fourteenth
Amendment does require, however, is an opportunity
... granted at a meaningful time and in a meaningful
manner, for [a] hearing appropriate to the nature of
the case.” Id. at 437. The Court of Appeals of
Massachusetts disposed of Petitioner’s appeal of the
dismissal of the Qui Tam Action at the same time
that it provided notice of Justice Neyman’s
participation, thereby failing to provide reasonable
notice and foreclosing any opportunity for Petitioner
to object at a meaningful time.
The Massachusetts Rules of Appellate
Procedure required that Petitioner file any
application for further appellate review (or a motion
for an extension of time, which is what Petitioner
filed) while the petition for rehearing was still
pending. See Mass. R. App. P. 27.1(a) (“Within 21
days after the date of the decision of the Appeals
Court, any party to the appeal may file an
application for further appellate review of the case
by the Supreme Judicial Court.”). That is, if no
extension request had been filed by Petitioner
concerning an application for further appellate
review, he would have been forced to file an

17

application for further appellate review prior to
notice of Justice Neyman’s parachuting act: Only in
Massachusetts, land of the undocumented judge, can
a court call extensions of time to file an application
for further appellate review an adequate post­
deprivation remedy for suddenly and surreptitiously
See Fuentes v.
suspending a court’s own rules.
Shevin, 407 U.S. 67, 81 (1971) (“If the right to notice
and a hearing is to serve its full purpose, then, it is
clear that it must be granted at a time when the
deprivation can still be prevented. ... But no later
hearing and no damage award can undo the fact that
the arbitrary taking that was subject to the right of
procedural due process has already occurred.”).
The SJC found another post-deprivation
remedy that Petitioner purportedly failed to make
use of: “Specifically, he could have filed an
appropriate postjudgment motion in the Superior
Court, see Mass. R. Civ. P. 60, 365 Mass. 828 (1974),
and appealed from any adverse ruling.” App. 5a.
Apparently, a litigant deprived of due process by an
intermediate state appeals court should find his
remedy back in the trial court, even though the
state’s highest court has exclusive supervisory
authority over all inferior courts. Mass. Gen. Laws
ch. 211 § 3.
Now is probably a good time to remind you
that Petitioner filed two separate lawsuits during
2017 related to the Qui Tam Action in Suffolk
Superior Court. In those lawsuits, Petitioner had
recusal motions denied for three separate judges:

18

One judge who, before becoming a judge, held a
campaign fundraiser at her home for Maura Healey
(then a candidate for Massachusetts Attorney
General) and participated in a different fundraiser
for Healey at her law firm; another judge who is a
former colleague of the Massachusetts Attorney
General and her spouse and also donated to Healey’s
campaign prior to becoming a judge; and still one
more judge who is a friend of the Massachusetts
Attorney General and her spouse.? Are you noticing
a trend developing? Have a look at PACER if you
think federal district court is somehow a remedy.
Notwithstanding the SJC’s supervisory role
and the fact that Petitioner keeps landing conflicted
judges who refuse to recuse in Suffolk Superior
Court (and elsewhere), the SJC was still obligated as
a matter of law to vacate the judgment in the appeal
See
of the dismissal of the Qui Tam Action.
Graciette v. Star Guidance, Inc., 66 FRD 424, 426
(S.D.N.Y. 1975) (noting void judgment may be
challenged by collateral attack in any court where
its validity is an issue); Field, 469 N. E. 2d at 821,
393 Mass, at 118 (“Rule 60(b)(4) allows relief only
from void judgments. A court must vacate a void
judgment. ... No discretion is granted by the
rule.”) (emphasis added); Wright, Miller, and Kane,
7 Chawla v. Commonwealth, et al., No. SUCV-2017-3165E
(Super. Ct. Suffolk Cty.); Chawla. v. Healey, et al., No.
SUCV-2017-2087C (Super. Ct. Suffolk Cty.). Either the dockets
of these cases or a simple internet search will yield this
indisputable information.

19

11 Federal Practice and Procedure at § 2862 (“There
is no question of discretion on the part of the court
when a motion is under Rule 60(b)(4).”).
In order to bless this manifest corruption of
the judicial process, the SJC twisted itself into quite
a pretzel. First, the SJC pretended that Mass. R.
App. P. 27(a) did not count for anything. Second, the
SJC put all of its weight behind Mass. R. App. P.
24(a) — try not to laugh when you re-read Mass. R.
App. P. 27(a).8 Meanwhile, the SJC appears to have
solved the problem for all litigants except for
Petitioner by adopting Rule 24(b), which was
effective March 1, 2019 and holds that “[i]f a justice
who has participated in a case becomes unable to
participate further, then the Chief Justice of the
appellate court may substitute another justice.”
Of course, neither the Massachusetts Attorney
General nor the SJC can point to a precedent for any
situation remotely resembling this train wreck of a
judicial proceeding.
The Massachusetts Attorney
General only repeats that there was no problem with
Justice Neyman’s sudden and surreptitious

8 Rule 24(a) holds that “[w]henever the justices before whom a
case has been heard so desire, others of the justices may be
called in to take part in the decision, upon a perusal of the
record and briefs, and the recording of any oral argument,
A recently effective amendment
without reargument.”
substituted the word “review” for “perusal” in Rule 24(a).
Rule 27(a) holds that “[a] petition for rehearing shall
be decided by the quorum or panel which decided the
appeal” (emphasis added).

20

substitution. The legal authority for this comical
conclusion is that whatever the Massachusetts
Attorney General utters from her perch in Boston is
gospel, so hurry up and genuflect.
The inescapable conclusion is that the
judgment entered in the appeal of the dismissal of
the Qui Tam Action by the Court of Appeals of
Massachusetts is void for failure to conform to the
requirements of the Due Process Clause of the
Fourteenth Amendment. See Espinosa, 559 U.S. at
271; Field, 469 N. E. 2d at 821, 393 Mass, at 118.
The SJC’s decision is in direct conflict with this
Court’s due process jurisprudence requiring
reasonable notice and an opportunity to be heard
prior to state government deprivation of a property
interest. For that reason, this Court must intervene
to put a stop to the SJC’s embarrassing endorsement
of the void judgment.
The Reasonable Notice Question Is An
II.
Important Federal Issue.
When any court suddenly and surreptitiously
substitutes a judge and then disposes of a case
without notice or an opportunity to be heard, a
reasonable person could and should suspect that the
In this case, a
proceeding is not on the level,
straightforward due process violation was
compounded by what was transpiring at the moment
when Justice Neyman parachuted into the rehearing
phase of the appeal of the dismissal of the Qui Tam

21

Action: Petitioner had brought new information that
was unavailable in the trial court regarding
improper and illegal payments by the U.S.
Department of Justice to the Massachusetts
Attorney General. The original appellate panel of
Justices Katzmann, Carhart, and Kinder agreed
with Petitioner that this new information warranted
further inquiry and those justices ordered the
Massachusetts Attorney General to respond.
Two days after that order, Justice Katzmann
resigned from the Court of Appeals of Massachusetts
and accepted his commission as a judge on the U.S.
Although a judge
Court of International Trade.
getting a new job is an ordinary occurrence, it is not
everyday that a judge (Katzmann) waits one
hundred days for his federal judicial commission.
Meanwhile, a judge who was nominated, had a
hearing, and was confirmed on the same days as
Katzmann (Jennifer Choe-Groves) received her
judicial commission for the same court just two days
after Senate confirmation of both Choe-Groves and
nothing to see here, move along.
Katzmann
It is apparent that the executive branch of the
United States pulled strings to manipulate the
outcome of the appeal of the dismissal of the Qui
Tam Action. Those who chose this course of action
were not concerned with adherence to the law,
because aside from violating the federal criminal
code, there was a total lack of concern for the
requirements of the Due Process Clause, namely
Petitioner’s entitlement under Mass. R. App,. P.

22

Indeed, had there been a period of notice
27(a).
preceding Justice Neyman’s involvement in the
appeal of the dismissal of the Qui Tam Action prior
to final disposition, there would be no question of a
void judgment.
Instead, Petitioner was ripped off by his own
government not once, but twice: First, by the U.S.
Department of Justice and the Massachusetts
Attorney General, which worked in tandem to steal
his whistleblower bounty; and second, by the court
system itself, which brazenly rigged the outcome of
his appeal without even attempting to conform to the
requirements of due process of law. If this Court,
like the SJC, is willing to tolerate this kind of
lawlessness, then let it be known that the United
States of America is a nation of reprobates, not laws.
See Olmstead v. United States, 277 U.S. 438, 485
(1928) (Brandeis, J., dissenting) (“If the Government
becomes a lawbreaker, it breeds contempt for law; it
invites every man to become a law unto himself; it
invites anarchy.”).
The Decision Below Conflicts With This
III.
Court’s Recusal Jurisprudence Under The Due
Process Clause.
Justice Neyman’s recusal was and is required
under the Due Process Clause, because, based on
representations made by the Massachusetts
Attorney General, Justice Neyman sat in review of
his own conduct as a state narcotics prosecutor and

23

either has or should have personal knowledge of
disputed facts. See Williams v. Pennsylvania, 136 S.
Ct. 1899, 1913, 195 L. Ed. 2d 132, 149-50 (2016)
(Roberts, C.J., dissenting) (“First, Murchison found a
due process violation because the judge (sitting as
grand jury) accused the witnesses of contempt, and
then (sitting as judge) presided over their trial on
We held that such prejudgment
that charge.
violated the Due Process Clause. Second, Murchison
expressed concern that the judge’s recollection of the
testimony he had heard as grand jury was likely to
weigh far more heavily with him than any testimony
given’ at trial. For that reason, the Court found that
the judge was at risk of calling ‘on his own personal
knowledge and impression of what had occurred in
the grand jury room,’ rather than the evidence
presented to him by the parties.”) (citations omitted);
Murchison, 349 U.S. at 138.
According to repeated representations of the
Massachusetts Attorney General, the CST was
secretly suspended following the SJC’s decision in
Justice Neyman (as a state narcotics
Mullins.
prosecutor) carried out this secret policy of non­
enforcement of the CST and then he (sitting as a
judge in the appeal of the dismissal of the Qui Tam
Action) determined that the same, secret non­
enforcement policy was not unlawful. See Murchison
at 136. It would be very strange if our legal system
permitted a prosecutor to carry out an unlawful
executive directive and then permitted him to review

24

the same, unlawful directive as an appellate judge.
See id.
According to the SJC, which briefly touched on
the recusal issue in a footnote, because some of these
' events occurred twenty years ago and in different
counties in Massachusetts, there is no reason to
require recusal. But this conclusion, like much of
what the Commonwealth of Massachusetts does,
ignores basic realities: The CST is a state law that
It is of no
applies to all of Massachusetts,
consequence whether Justice Neyman partook in the
secret non-enforcement of the CST in Boston,
Barnstable, or the Berkshires.
The elapse of time, too, does not change the
fact that repeated statements in court made by the
Massachusetts Attorney General implicate Justice
Neyman in the fact pattern which he reviewed.
Similar to the judge in Murchison, Justice Neyman
wore two hats: A prosecutor carrying out an
executive directive and a judge reviewing the same
executive directive. These dual roles placed Justice
Neyman in a capacity to prejudge that any honest
and fair court would find intolerable under the Due
Process Clause.
In addition, similar to the judge in Murchison,
Justice Neyman had personal knowledge of disputed
facts regarding how and why the CST was secretly
suspended. These disputed facts include the extent
to which payments from the U.S. Department of
Justice have influenced the enforcement or non­
Alternatively, if the
enforcement of the CST.

25

Massachusetts Attorney General is lying about the
secret suspension of the CST (incredibly, we still do
not know about that), Justice Neyman would be
aware of the lie because he was a state narcotics
prosecutor during the relevant period.
Justice Neyman’s personal knowledge of
disputed facts disqualified him from participation in
the appeal of the dismissal of the Qui Tam Action,
because there was an unacceptable risk that he
would call upon personal knowledge regarding the
CST rather than the evidence presented by the
parties. See Williams, 136 S. Ct. at 1913, 195 L. Ed.
2d at 149-50; Murchison, 349 U.S. at 138. Moreover,
the manner in which Justice Neyman parachuted
into the appeal of the dismissal of the Qui Tam
Action moved his participation from questionable to
comical.
Like the issue of reasonable notice, the SJC
did not deign to explore or even mention any of these
issues, let alone the words “due process.” For these
reasons, the decision below conflicts with this Court’s
recusal jurisprudence under the Due Process Clause.
The Recusal Question Is An Important
IV.
Federal Issue.
In recent years, this Court’s recusal
jurisprudence concerning the Due Process Clause
has befuddled lower courts and litigants alike, not to
mention some of this Court’s own members. See,
e.g., Williams, 136 S. Ct. at 1913, 195 L. Ed. 2d at

26

149-50. This Court would be wise to both repair the
damage caused by this train wreck of a case and to
use this opportunity to clarify what the Due Process
Clause specifically requires with respect to recusal.
There is, of course, something deeper and
more sinister at play in this case than a recusal
dispute about the surprise participation of Justice
Neyman.
Indeed, in a parallel state court case
concerning recovery of the bounty in the Qui Tam
Action, a Boston-based judge (and friend of the
Massachusetts Attorney General) closed her opinion
by warning future courts against opening “a
Pandora’s Box.” Chawla v. Commonwealth, et al,
No. SUCV-2017-3165E (Super. Ct. Suffolk Cty., Dec.
20, 2018).
You would have to be hiding under a rock for
the past few years to not see, hear, and feel the
disbelief, disillusionment, and disgust that we, the
unwashed masses, have for our own justice system.
Former Judge Richard Posner was right about the
way that courts in this Country treat non-lawyers:
We are a “kind of trash” to the clueless and crooked
As one former
clowns who control the courts,
member of this Court was fond of saying, “garbage
in, garbage out.”

27

CONCLUSION
The petition for a writ of certiorari should be
granted.

Respectfully Submitted.

JAIDEEP S. CHAWLA
Mailing Address:
12 Lexington Avenue
Charlestown, MA 02129
September 9, 2019

